<‘;v.

)
(u Y'

*4J

No.
THE SUPREME COURT OF THE UNITED STATES

MARCUS ADAM SNIPES - Petitioner
v.

STATE OF FLORIDA - Respondent

On Petition for writ of Certiorari to
The District Court of Appeal of the State of Florida - Second District

PETITION FOR WRIT OF CERTIORARI

PETITIONER:
Marcus Adam Snipes, DC# 528259
Mayo Correctional Institution Annex
8784 U.S. Highway 27 West
Mayo, FL 32066-3458

i

QUESTION PRESENTED
In Apprendi v. New Jersey, 530 U.S. 466, 490 (2000), the Court held that
“other than the fact of a prior conviction, any fact that increases the penalty for a
crime beyond the prescribed statutory maximum must be submitted to the jury and
proved beyond reasonable doubt.”
The question presented is:
WHETHER THE STATE CAN AVOID APPRENDI’S
REACH BY WRITING ITS PENAL STATUTES SO
THAT A FACT THAT INCREASES THE PENALTY
FOR A CRIME INSTEAD BECOMES A FACT THAT
DECREASES THE PENALTY.

li

(4

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

in

3

u

TABLE OF CONTENTS
Opinions below

2

Jurisdiction

3

Constitutional and Statutory Provisions Involved

4

Statement of the Case

6

Reasons for Granting the Writ

8

Conclusion

12

IV

)

INDEX TO APPENDICES

V
Appendix A.

Decision of the state appeals court.

Appendix B.

Decision of the state trial court.

Appendix C.

Order of the state appeals court denying rehearing.

Appendix D.

Petitioner’s motion for rehearing to the state appeals court.

Appendix E.

Petitioner’s motion to correct illegal sentence to the
state trial court.

Appendix F.

Petitioner’s sentencing scoresheet.

v

?

f.

TABLE OF AUTHORITIES
Cases:
Apprendi v. New Jersey, 530 U.S. 466 (2000)
Blakely v. Washington, 542 U.S. 296 (2004)

8-11
9

Brown v. State, 260 So.3d 147 (Fla. 2018)......................

9-10

Robbinson v. State, 784 So.2d 1246 (Fla. 3rd DCA 2001)

9

Statutes:
Section 775.084(l)(d), Florida Statutes (2012)

6

Section 775.084(4)(d), Florida Statutes (2012)

6

Section 775.084(4)(e), Florida Statutes (2012)

8-9

vi

I

No.

THE SUPREME COURT OF THE UNITED STATES

MARCUS ADAM SNIPES - Petitioner
v.
STATE OF FLORIDA - Respondent

On Petition for writ of Certiorari to
The District Court of Appeal of the State of Florida - Second District

PETITION FOR WRIT OF CERTIORARI
The Petitioner, Marcus Adam Snipes (“Snipes”), respectfully petitions the
Honorable Court for a writ of certiorari to review the judgment of the District
Court of Appeal of the State of Florida for the Second District.

1

%
/
/

*4

OPINIONS BELOW
The opinion of the highest state court to review the merits appears at
Appendix A to the petition, but is not yet reported in the Southern Reporter.

2

'■C

JURISDICTION
The date on which the highest state court decided Snipes’ case was January
8, 2021. A copy of the decision appears at Appendix A. A timely motion for
rehearing was denied on March 11, 2021, and a copy of the order denying
rehearing appears at Appendix C.

3

/

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitution:
Amendment 6 states:
In all criminal prosecutions, the accused shall enjoy the right to a...
trial by an impartial jury.
Amendment 14 states:
Nor shall any state deprive any person of life, liberty, or property
without due process of law.
Florida Statutes:
Section 775.084(l)(d), Florida Statutes (2012) states:
“Violent career criminal” means a defendant for whom the court must
impose imprisonment pursuant to paragraph (4)(d), if it finds that:
The defendant has previously been convicted as an adult
1.
three or more times for an offense in this state or other qualified
offense that is:
a. Any forcible felony, as described in s. 775.08;
b. Aggravated stalking, as described in s. 784.048(3) and (4);
c. Aggravated child abuse, as described in s. 827.03(2)(a);
d. Aggravated abuse of an elderly person or disabled person, as
described in s. 825.102(2);
e. Lewd or lascivious battery, lewd or lascivious molestation,
lewd or lascivious conduct, or lewd or lascivious exhibition, as
described in s. 800.04 or s. 847.0135(5);
f. Escape, as described in s. 944.40; or
g. A felony violation of chapter 790 involving the use or
possession of a firearm.
The defendant was incarcerated in a state prison or a federal
2.
prison.
The primary felony offense for which the defendant is to be
3.
sentenced is a felony enumerated in subparagraph 1. and was
committed on or after October 1, 1995, and:

4

?
c4

a. While the defendant was serving a prison sentence or other
sentence, or court-ordered or lawfully imposed supervision that is
imposed as a result of a prior conviction for an enumerated felony; or
b. Within 5 years after the conviction of the last prior
enumerated felony, or within 5 years after the defendant’s release
from a prison sentence, probation, community control, control release,
conditional release, parole, or court-ordered or lawfully imposed
supervision or other sentence that is imposed as a result of a prior
conviction for an enumerated felony, whichever is later.
The defendant has not received a pardon for any felony or
4.
other qualified offense that is necessary for the operation of this
paragraph.
A conviction of a felony or other qualified offense necessary
5.
for the operation of this paragraph has not been set aside in any
postconviction proceeding.
Section 775.084(4)(d) provides:
The court, in conformity with the procedure established in paragraph
(3)(c), shall sentence the violent career criminal as follows:
1.
In the case of a life felony or a felony of the first degree, for
life,
2.
In the case of a felony of the second degree, for a term of
years not exceeding 40, with a mandatory minimum term of 30 year’s
imprisonment.
In the case of a felony of the third degee, for a term of years
3.
not exceeding 15, with a minimum mandatory term of 10 years’
imprisonment.
Section 775.084(4)(e), provides:
If the court finds, pursuant to paragraph (3)(a) or paragraph (3)(c),
that it is not necessary for the protection of the public to sentence a
defendant who meets the criteria for sentencing as a habitual felony
offender, a habitual violent felony offender, or violent career criminal,
with respect to an offense committed on or after October 1, 1995,
sentence shall be imposed without regard to this section.

5

t

STATEMENT OF THE CASE

♦
1.

The State of Florida charged Snipes under section 790.23(1), Florida

Statutes (2012), with the crime of being a felon in possession of a firearm.
2.

The crime of being a felon in possession of a firearm is a second

degree felony punishable by up to 15 years imprisonment.
3.

Snipes was convicted of the crime after a jury trial.

4.

Snipes sentencing scoresheet under the Criminal Punishment Code

yielded a lowest permissible sentence of 45.5 months prison and a maximum
sentence of 15 years prison. Appendix F.
5.

The State moved the trial court to sentence Snipes as a violent career

criminal under section 775.084(l)(d), Florida Statutes (2012).
6.

The trial court found that Snipes qualified to be sentenced as a violent

career criminal.
7.

Pursuant to section 775.084(4)(d), the court sentenced Snipes to

imprisonment for 32 years with a minimum mandatory prison term of 30 years.
8.

The state appellate affirmed Snipes conviction and sentence on direct

appeal. Snipes v. State, 166 So.3d 784 (Fla. 2nd DCA 2014).
9.

Snipes filed a motion to correct illegal sentence under Florida Rule of

Criminal Procedure 3.800(a), and argued his 32 year prison sentence with a 30 year
mandatory minimum term under the violent career criminal statute is illegal

6

si
♦

because the statute placed the burden on him to prove that it was not necessary for
the protection of the public to exceed the statutory maximum for his crime.
Appendix E.
10.

The state trial court denied Snipes motion, explaining “the violent

career criminal statute does not allow for the court to increase a defendant’s
maximum sentence based a “dangerousness” finding; rather, it only allows the
court to refrain from sentencing the defendant a a violent career criminal if the
court determines “that it is not necessary for the protection of the public to
sentence the defendant as a violent career criminal.” Appendix B.
11.

The state appeals court affirmed the decision of the trial court.

Appendix A.

7

J

i

REASONS FOR GRANTING THE WRIT
The question presented appears to be one the Court has not previously
considered. The question is whether the state may avoid Apprendi v. New Jersey,
530 U.S. 466 (2000), by writing a statute so that a fact necessary to an increased
sentence instead becomes a fact necessary to a decreased sentence.
In Apprendi the Court held that “other than the fact of a prior conviction, any
fact that increases the penalty for a crime beyond the prescribed statutory
maximum must be submitted to a jury and proved beyond reasonable doubt.” Id.,
490. At issue in the case was New Jersey’s hate crime statute that provides for “an
“extended term’ of imprisonment if the trial judge finds by a preponderance of the
evidence that the ‘defendant in committing the crime acted with a purpose to
intimidate an individual or group of individuals because of race, color, gender,
handicap, religion, sexual orientation or ethnicity.” Id., 468-69. The Court held
this statutory scheme was unconstitutional because it allowed a judge—and not a
jury—to find by a preponderance of the evidence a fact necessary to an increased
sentence. Id. 491.
Now what if New Jersey had written its hate crime statute so that the
extended term of imprisonment was the normal statutory maximum, and allow for
a decreased sentence if the trial judge finds the defendant did not act with a
purpose to intimidate one of the specified groups. That is, could a state avoid

8

1

i

Apprendi by framing a fact in the negative so that it is a sentence decreasing fact
and not a sentence increasing fact.
At issue in Snipes’ case is the operation of section 775.084(4)(e), stating:
If the court finds, pursuant to paragraph (3)(a) or
paragraph (3)(c), that it is not necessary for the protection
of the public to sentence a defendant who meets the
criteria for sentencing as a habitual felony offender, a
habitual violent felony offender, or violent career
criminal, with respect to an offense committed on or after
October 1, 1995, sentence shall be imposed without
regard to this section.
The question is whether the fact of “not necessary for the protection of the
public is an adjudicatory fact within the meaning of Apprendi given that the fact
decreases the sentence, not increases it.
In Robbinson v. State, 784 So.2d 1246 (Fla. 3rd DCA 2001), the district court
considered whether the fact of “not necessary for the protection of the public” was
“an adjudicatory fact within the meaning of Apprendi.” The district court held it
was not because
Apprendi is triggered by a “fact that increases the penalty
for a crime beyond the prescribed statutory maximum.”
The trial court’s option under subsection 775.084(4)(c) to
impose a non-habitual offender sentence is an option to
stay within the ordinary statutory maximum, not to
increase it.
Id., 1247.

9

si
i

In Brown v. State, 260 So.3d 147 (Fla. 2018), the state supreme court held
that section 775.082(10), Florida Statutes, violated the jury trial guarantee of the
Sixth Amendment to the United States Constitution, as interpreted by Apprendi
and Blakely\ where the statute required the court—and not the jury—to make the
finding of dangerousness to the public.

Section 775.082(10), Florida Statutes

states:
If a defendant is sentenced for an offense committed on
or after July 1, 2009, which is a third degree felony but
not a forcible felony as defined in 776.08, and excluding
any third degree felony violation under chapter 810, and
if the total sentence points pursuant to s. 921.0024 are 22
points or fewer, the court must sentence the offender to a
nonstate prison sanction. However, if the court makes
written findings that a nonstate prison sanction could
present a danger to the public, the court may sentence the
offender to a state correctional facility pursuant to this
section.
The supreme court determined this section “unambiguously sets the statutory
maximum penalty, for Apprendi purposes as defined by Blakely, as a ‘nonstate
prison sanction’.” Id., 150. The supreme court, however, added “it would have
been possible for the Legislature to have written this statute as a ‘mitigation
statute,’ giving the court discretion to impose up to five years unless the defendant
proves non-dangerousness...” Id.

Blakely v. Washington, 542 U.S. 296 (2004)

10

J
i

As suggested by these cases, the state could avoid Apprendi by writing or
rewriting its criminal statutes so that a fact for an increased sentence becomes a
fact for a decreased sentence.
However, the fact of “not necessary for the protection of the public” stated
in the negative is, in effect, no different from the fact of “necessary for the
protection of the public” stated in the positive. The legislature cannot avoid the
twin pillars of jury factfinding and proof beyond reasonable doubt by simply
adding the word “not” in front of a fact that would otherwise increase the penalty
for a crime beyond the statutory maximum. The fact of “necessary for public
protection”—whether stated in the negative or in the positive—is “a fact that

■i

increases the penalty for a crime beyond the prescribed statutory maximum.”
Here, the prescribed statutory maximum for Snipes’ crime of being a felon
in possession of a firearm was 15 years prison. The violent career criminal statute,
however, increased that penalty to 40 years prison with the requirement that this
Court impose a minimum mandatory term of 30 years prison. However, if Mr.
Snipes proved that it was not necessary for the protection of the public to exceed
the prescribed statutory maximum for his crime, then his sentence would have been
no more than 15 years prison. Snipes’ sentence of 32 years prison with a 30 year
minimum mandatory violates Apprendi.

11

-a

i

CONCLUSION
Mr. Snipes asks the Court to grant his petition for writ of certiorari.
Respectfully submitted,

Marcus Adam Snipes, DC# 528259
Mayo Correctional Institution Annex
8784 U.S. Highway 27 West
Mayo, FL 32066-3458

12

